    DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                               Office of Inspector General


                                                                                          Washington, D.C. 20201

                                                 NOV      5 2009 





TO: 	             Charlene Frizzera
                  Acting Administrator
                  Centers for Medicare & Medicaid Services

                  Margaret A. Hamburg, M.D. 

                  Commissioner 

                  Food and Drug Administration 



FROM:             Stuart Wright /S/
                  Deputy Inspector General
                    for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: "Renal Dialysis Facilities' Dosage Protocols for
           Administering Erythropoiesis-Stimulating Agents," 0 EI -03 -09-000 10


This memorandum report presents the results of our review to (1) determine the extent to which
Medicare-certified dialysis facilities have protocols for administering erythropoiesis-stimulating
agents (ESAs), (2) determine the extent to which facilities' protocols are consistent with the
boxed warning and selected guidelines on ESAs' labels, and (3) determine the extent to which
facilities' protocols conform with Medicare's benefit policy for ESAs and payment monitoring
policy for ESA claims.

While they are not required to do so, dialysis facilities may develop their own protocols for
administering ESAs to patients with chronic kidney failure. The protocols may define target
hemoglobin levels and dosage instructions for administering ESAs. When physicians approve
the protocols for specific patients, the patients' target hemoglobin levels and ESA dosages are
based on the protocols.

According to the boxed warning on ESAs' labels, maintaining higher rather than lower
hemoglobin levels in a patient with chronic kidney failure can adversely affect the patient's
health and increase the risk of death. Specifically, the boxed warning states that providers
should administer ESAs "to achieve and maintain hemoglobin levels within the range of
10 to 12 grams per deciliter (g/dL)." The Medicare benefit policy for ESAs reflects the target
hemoglobin range specified in the boxed warning. A separate Medicare policy for monitoring
ESA payments states that the Centers for Medicare & Medicaid Services (CMS) will reduce
reported dosages upon which ESA claims are paid when patients' hemoglobin levels exceed
13g/dL.



OEI-03-09-00010      Renal Dialysis Facilities' Dosage Protocols for Administering ESAs
Page 2 – Charlene Frizzera and Margaret A. Hamburg, M.D.

We conducted this review in response to a request from Chairman Fortney Pete Stark of the
Subcommittee on Health, Committee on Ways and Means, U.S. House of Representatives.
Some members of Congress have raised concerns that dialysis facilities’ protocols for
administering ESAs may not be consistent with the current boxed warning for these drugs.

We found that most Medicare-certified dialysis facilities had protocols in place for administering
ESAs, but only 56 percent of facilities’ protocols explicitly state a target hemoglobin range. We
could not determine whether the remaining 44 percent of protocols were consistent with the
boxed warning and Medicare’s benefit policy because they do not specify a target hemoglobin
range. Of the protocols that state a target hemoglobin range, 94 percent are consistent with the
boxed warning and the Medicare benefit policy for ESAs because the upper limit of the stated
target range is equal to or less than 12 g/dL.

In addition, our review of protocols to determine whether they are consistent with selected
guidelines on ESAs’ labels revealed that some protocols contain information that differs from
labeling guidelines regarding starting doses, dose adjustments, and withholding ESA doses.
Finally, all of the protocols that include a target hemoglobin range or level at which to increase
ESA doses conform with CMS’s monitoring policy for ESA claims.

BACKGROUND

End Stage Renal Disease
Chronic kidney failure is the gradual loss of kidney function. When chronic kidney failure
progresses, it may eventually lead to end stage renal disease (ESRD). ESRD is a permanent
kidney impairment that requires either a regular course of dialysis or a kidney transplant.
Generally, patients with ESRD are entitled to Medicare benefits regardless of their age. 1 CMS
covers an estimated 400,000 beneficiaries with ESRD and spends about $8.1 billion annually for
ESRD services, including dialysis and related supplies, equipment, and drugs. 2

According to the National Kidney Foundation, dialysis is a treatment for ESRD patients that
functions in place of healthy kidneys. Dialysis removes waste, salt, and extra water from the
body; keeps a safe level of certain chemicals in the blood; and helps to control blood pressure. 3
Dialysis facilities provide outpatient dialysis to ESRD patients. Dialysis facilities must be
certified in order to receive Medicare reimbursement. 4 A dialysis facility may be a freestanding
unit or be located in a hospital. 5 As of October 2008, there were 5,113 Medicare-certified


1
  Section 226A of the Social Security Act; 42 CFR § 406.13.
2
  “Payment, Safety, and Quality Issues in Treatment of Patients With End-Stage Renal Disease: Hearing Before
U.S. House Committee on Ways and Means Subcommittee on Health,” 109th Congress, 2007. Statement of Leslie
Norwalk, Acting Administrator, CMS.
3
  National Kidney Foundation, “Dialysis.” Available online at http://www.kidney.org/atoz/atozItem.cfm?id=39.
Accessed on May 11, 2009.
4
  42 CFR §§ 405.2102 and 488.60.
5
  42 CFR § 405.2102; CMS, “Medicare Benefit Policy Manual,” Pub. No. 100-02, ch. 11, § 10.B.

OEI-03-09-00010     Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 3 – Charlene Frizzera and Margaret A. Hamburg, M.D.

dialysis facilities in the United States. Eighty-one percent of these facilities (4,120) were
for-profit entities, while 19 percent (993) were nonprofit entities.

Anemia
Nearly all patients with ESRD have anemia, which may begin to develop in the early stages of
chronic kidney failure. Healthy kidneys produce a hormone that stimulates bone marrow to
produce the proper number of red blood cells. Diseased kidneys often do not produce sufficient
amounts of this hormone, which results in fewer red blood cells and the development of anemia.
Tests that measure patients’ hemoglobin (a protein made by red blood cells) and hematocrit (the
proportion of red blood cells in whole blood) can be used to monitor anemia.

Erythropoeisis-Stimulating Agents
ESAs are prescription drugs that increase the number of red blood cells in patients suffering from
anemia. For ESRD patients, ESAs are typically administered during dialysis treatments by
intravenous or subcutaneous injection. After an ESA dose is administered or a dose adjustment
is made, it may take several weeks for a patient’s hemoglobin level to change significantly.
Epoetin alfa (marketed under the names Epogen and Procrit) and darbepoetin alfa (marketed
under the name Aranesp) are the two ESAs approved by FDA for the treatment of anemia
associated with chronic kidney failure.

ESAs are covered under the Medicare Part B benefit for ESRD patients. 6 CMS currently pays
dialysis facilities a composite rate for most dialysis services, including labor costs, related
supplies, and certain drugs. 7 However, the composite rate does not include ESAs and other
specific drugs. Dialysis facilities bill separately for these drugs. 8 9 Payments for ESAs account
for over 60 percent of separately billable drugs, and over 25 percent of total Medicare spending
on ESRD services annually. 10

Protocols for Administering ESAs
While not required, dialysis facilities may develop their own protocols for administering ESAs to
ESRD patients. The protocols may define target hemoglobin levels and dosage instructions for
ESAs. For dialysis facilities with protocols in place for administering ESAs, physicians may
approve the protocols as patients’ standing orders.

When physicians approve the protocols for specific patients, the patients’ target hemoglobin
levels and ESA dosages are based on the protocols. Anemia managers, frequently nurses

6
  CMS, “Medicare Benefit Policy Manual,” § 90.
7
  CMS, “Medicare Benefit Policy Manual,” § 30.
8
  CMS, “Medicare Claims Processing Manual,” Pub. No. 100-04, ch. 8, § 60.4 (epoetin alfa) and § 60.7 (darbepoetin
alfa).
9
  Pursuant to section 153(b) of the Medicare Improvements for Patients and Providers Act of 2008
(P.L. No. 110-275), CMS is required to implement a fully bundled payment system for ESRD services by January 1,
2011. The new bundled payment will include reimbursement for both ESAs and services currently included in the
composite rate.
10
   Norwalk, loc. cit.

OEI-03-09-00010      Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 4 – Charlene Frizzera and Margaret A. Hamburg, M.D.

employed by dialysis facilities, oversee patients’ anemia management. These practitioners may
make dosage changes based on the protocols without new orders from physicians.

For facilities with protocols, physicians may still choose not to approve the protocols and instead
may write individual ESA orders for their patients. For dialysis facilities that do not have
protocols for administering ESAs, physicians must write individual orders for ESAs.

FDA’s Requirements for Labeling of ESAs
FDA determines whether new drugs are safe, effective, and should be approved for marketing in
the United States. Once a drug is approved, FDA conducts postmarket surveillance and risk
assessment to identify adverse reactions and safety risks that did not appear during clinical trials
before drug approval.

Clinical trials conducted after ESAs were approved have provided new safety information on the
use of these drugs to treat anemia in patients with chronic kidney failure. Results of studies
conducted in 1996 and 2006 showed that patients with chronic kidney failure were at increased
risk for serious cardiovascular complications when ESAs were administered to target higher,
rather than lower, hemoglobin levels. These complications included stroke, heart attack, heart
failure, and death.

FDA’s Cardiovascular and Renal Drugs Advisory Committee and Drug Safety and Risk
Management Advisory Committee met in September 2007 to discuss the risks and benefits of
ESAs when used to treat anemia due to chronic kidney failure.11 Although the committees did
not reach consensus in recommending a specific target hemoglobin level, many members at the
meeting recommended a target range of 10 to 12 g/dL or a specific target within that range.

Boxed Warning. Based on the results of clinical trials and input from the FDA advisory
committees, FDA required the manufacturer of ESAs to revise the labeling for ESAs and add a
boxed warning. The warning information is placed prominently at the top of the labeling and is
enclosed in a box. A boxed warning is the strongest warning for an FDA-approved product. It is
used to highlight warning information that is especially important to the prescriber, including an
adverse reaction so serious in proportion to the potential benefit from the drug (e.g., a fatal,
life-threatening, or permanently disabling adverse reaction) that it is essential that it be
considered in assessing the risks and benefits of using a drug. It is also used to highlight a
serious adverse reaction that can be prevented or reduced in frequency or severity by appropriate
use of the drug.

The current boxed warning on ESA labels for patients with chronic kidney failure states:

        Patients experienced greater risks for death and serious cardiovascular events when
        administered erythropoiesis-stimulating agents (ESAs) to target higher versus lower

11
  FDA establishes advisory committees to obtain independent, expert advice on products regulated by FDA,
including drugs.

OEI-03-09-00010      Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 5 – Charlene Frizzera and Margaret A. Hamburg, M.D.

        hemoglobin levels (13.5 vs. 11.3 g/dL; 14 vs. 10 g/dL) in two clinical studies.
        Individualize dosing to achieve and maintain hemoglobin levels within the range of 10 to
        12 g/dL. 12

The ESAs’ labels contain other information, including guidelines for selecting the starting dose
and adjusting subsequent dosages for patients with chronic kidney failure.

Medicare Policies for ESAs
According to Chapter 11 of the Medicare Benefit Policy Manual, ESAs are covered under Part B
for ESRD patients suffering from anemia. The benefit policy states that “ESRD patients who
have been receiving [ESA] therapy should have a hematocrit between 30 and 36.” This
hematocrit range is equivalent to a hemoglobin between 10 and 12 g/dL.

Effective January 1, 2008, CMS modified its policy for monitoring ESA claims and payments in
response to emerging scientific data and the boxed warning on ESAs’ labels. Dialysis facilities
are required to report patient hemoglobin or hematocrit levels on all ESA claims. 13 CMS’s
monitoring policy is based on these reported hemoglobin or hematocrit levels and establishes a
threshold at which CMS reduces the reported ESA dosage upon which an ESA claim is paid. 14

For all patients whose hemoglobin levels exceed 13 g/dL for less than 3 months and for whom a
reduction in the ESA dosage has not been reported, CMS will pay only for a dosage which
represents a 25-percent reduction of the dosage reported on the claim. 15 For ESA claims with
reported hemoglobin levels that exceed 13 g/dL for 3 or more consecutive months, CMS will pay
for a dosage that represents a 50-percent reduction from the dosage reported on a claim. 16

METHODOLOGY

Scope
We reviewed current protocols for administering ESAs from a stratified random sample of
Medicare-certified dialysis facilities. We compared information contained in these protocols to
(1) the boxed warning and selected dosage guidelines on ESAs’ labels, and (2) Medicare’s
benefit policy for ESAs and monitoring policy for ESA claims. We did not review Medicare
claims for ESAs. We did not collect ESRD patients’ records to review documentation, such as
physician orders, that may support ESA claims.



12
   FDA, “Information on Erythropoeisis-Stimulating Agents Epoetin alfa (marketed as Procrit, Epogen) and
Darbepoetin alfa (marketed as Aranesp).” Available online at
http://www.fda.gov/cder/drug/infopage/RHE/default.htm. Accessed on June 3, 2009.
13
   CMS, “Medicare Claims Processing Manual,” §§ 60.4 (epoetin alfa) and 60.7 (darbepoetin alfa).
14
   Although CMS’s monitoring policy refers to both hemoglobin and hematocrit levels, and each of these measures
will be applied during the study as appropriate, hereinafter, we will refer only to hemoglobin levels.
15
   CMS, “Medicare Claims Processing Manual,” loc. cit.
16
   Ibid.

OEI-03-09-00010      Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 6 – Charlene Frizzera and Margaret A. Hamburg, M.D.

Sample Design
We selected a stratified random sample of 400 dialysis facilities from CMS’s October 2008
Dialysis Facility Compare database, which contains all Medicare-certified dialysis facilities. 17
The total number of facilities in the sample was reduced from 400 to 399 because one facility
responded that it is an inpatient hospital unit that does not provide outpatient dialysis services.

As shown in Table 1, we stratified the population of dialysis facilities by profit status to ensure
that our sample would contain a sufficient number of both for-profit and nonprofit facilities.

Table 1: Sample of Dialysis Facilities
                                                                       Facilities in       Facilities in    Responding
 Stratum            Description of Stratum
                                                                       Population              Sample         Facilities

 1                  For-profit dialysis facilities                            4,120                200              190

 2                  Nonprofit dialysis facilities                               993                199              176

                                 Total                                        5,113                399              366

Source: Office of Inspector General (OIG) sample design and CMS Dialysis Facility Compare Database, October 2008.



Data Collection
We obtained business name and address information for each dialysis facility in the sample from
the Dialysis Facility Compare database. In January 2009, we requested by mail the sample
facilities’ protocols for administering ESAs. We asked all facilities to complete a one-page
request form indicating whether they have a protocol in place and providing general information
about the characteristics of the facility. We received responses to our request from 366 of 399
sample dialysis facilities—a 92-percent response rate.

Some facilities did not have protocols in place. Fourteen facilities in our sample had more than
one ESA protocol in place at the time of our request. These 14 facilities submitted multiple
protocols for administering ESAs. For example, a facility may have a protocol in place for the
administration of epoetin alfa, in addition to a separate protocol for the administration of
darbepoetin alfa.

We received a total of 357 protocols from the 366 responding facilities. Eighty-four percent of
protocols were specific to epoetin alfa and 16 percent were specific to darbepoetin alfa.

We created a structured data collection instrument to guide our review of each ESA protocol we
received from sample facilities. We collected information on the type of ESA protocol, target
hemoglobin levels presented in the protocol, and starting dose and dose adjustment information
presented in the protocol.



17
  “Medicare Dialysis Facility Compare Database.” Available online at
http://www.medicare.gov/Download/DownloadDB.asp. Accessed on December 18, 2008.

OEI-03-09-00010        Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 7 – Charlene Frizzera and Margaret A. Hamburg, M.D.

Data Analysis
We determined the number of dialysis facilities that have ESA protocols in place. We analyzed
the protocol review data to determine the percentage of protocols that are consistent with the
boxed warning on ESA labels and the Medicare benefit policy for ESAs. The boxed warning
and benefit policy specify that the target hemoglobin level for patients with chronic kidney
failure should be in the range of 10 to 12 g/dL. We reviewed protocols to determine whether
they specified an explicit target hemoglobin range. Of protocols that specified an explicit target
range, we considered those in which the upper limit of the range was equal to or less than
12 g/dL to be consistent with both the boxed warning and the benefit policy. 18 We used the
upper limit of the target range to determine consistency because the boxed warning on ESA
labels states that health risks increase with higher hemoglobin levels.

We analyzed the protocol review data regarding starting doses and dose adjustments. 19 We
compared this information to selected dosage and administration guidelines on the
FDA-approved labeling for ESAs. The selected guidelines are presented in Table 2.
Table 2: Selected ESA Dosage and Administration Guidelines for Patients With Chronic
Kidney Failure
 Starting Dose Guidelines

 Epoetin alfa starting dose for adults is 50 to 100 units per kilogram, 3 times per week.

 Darbepoetin alfa starting dose for adults is 0.45 micrograms per kilogram, weekly.

 Dose Adjustment Guidelines


 Increase epoetin alfa dose when hemoglobin level is less than 10 g/dL.

 Decrease epoetin alfa and darbepoetin alfa dose when hemoglobin approaches 12 g/dL.

 Withhold epoetin alfa and darbepoetin alfa dose when hemoglobin continues to rise after a dose decrease.

Source: Epogen, Procrit, and Aranesp labels, approved by FDA on November 19, 2008.


We also determined whether dialysis facilities’ protocols conform with the hemoglobin threshold
specified in CMS’s monitoring policy for ESA claims. We considered protocols with target
hemoglobin levels that do not exceed 13 g/dL to conform with the monitoring policy. In
addition, we compared protocol review data regarding dose increases to the monitoring policy.

Facilities that responded to our request for ESA protocols indicated their profit status, whether
the facility is part of a chain, whether the facility is hospital-based or freestanding, and the size
of the facility (number of dialysis stations). We examined whether the percentage of protocols

18
   Three protocols specified a single target hemoglobin level, rather than a target range. We considered the target
hemoglobin level to be the upper limit of the target range for these protocols.
19
   Some ESA protocols include starting dose information that we cannot compare to the guidelines on the ESAs’
labels. Therefore, we did not include these protocols in our starting dose analysis. For example, some protocols
include starting dose amounts, but do not specify how many times per week the dose should be administered.

OEI-03-09-00010          Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 8 – Charlene Frizzera and Margaret A. Hamburg, M.D.

that are consistent with the boxed warning differs based on dialysis facilities’ self-reported
characteristics. We tested for statistically significant differences.

We used SUDAAN software to produce weighted estimates of protocol review data percentages.
These estimates reflect our stratified sample design and are provided in Appendix A. The results
of our statistical significance tests are provided in Appendix B.

Standards
This study was conducted in accordance with the “Quality Standards for Inspections” approved
by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Ninety-Three Percent of Medicare-Certified Dialysis Facilities Had Protocols in Place for
Administering ESAs, But Only 56 Percent of the Protocols Explicitly State a Target
Hemoglobin Range
Based on responses we received from the Medicare-certified dialysis facilities in our sample, we
estimate that 93 percent of all facilities had protocols in place for administering ESAs at the time
of our request. Seven percent of facilities did not have ESA protocols in place. Point estimates
and confidence intervals for all statistics presented in the findings of this memorandum report are
provided in Appendix A.

Table 3 displays selected types of information included in the protocols for administering ESAs,
such as target hemoglobin range and dosage and administration guidelines. Fifty-six percent of
protocols include a target hemoglobin range and ESA starting dose information. More than
90 percent of protocols include information about when to increase, decrease, and withhold ESA
doses.

Table 3: Selected Types of Information Included in ESA Protocols
                                                              Percentage of Protocols That   Percentage of Protocols That Do
Type of Information
                                                                  Include This Information       Not Include This Information

 Target hemoglobin range                                                               56%                              44%

 Starting dose instructions                                                            56%                              44%

 Specific hemoglobin level at which to increase dose
                                                                                       95%                                5%
 (epoetin alfa protocols only)

 Specific hemoglobin level at which to decrease dose                                   91%                                9%

 Specific hemoglobin level at which to withhold dose                                   95%                                5%

Source: OIG analysis of dialysis facilities’ protocols for administering ESAs, 2009.




OEI-03-09-00010          Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 9 – Charlene Frizzera and Margaret A. Hamburg, M.D.

Ninety-Four Percent of Protocols That Include a Target Hemoglobin Range Are Consistent
With the Boxed Warning on ESAs’ Labels and the Medicare Benefit Policy for ESAs
The boxed warning on ESA labels states that providers should administer the drugs to “achieve
and maintain hemoglobin levels within the range of 10 to 12 g/dL” for patients with chronic
kidney failure. 20 The Medicare benefit policy for ESAs reflects the target hemoglobin range
specified in the boxed warning. Fifty-six percent of protocols explicitly state a target
hemoglobin range. We could not determine whether the remaining 44 percent of protocols in our
review are consistent with the boxed warning or Medicare benefit policy because they do not
specify a target hemoglobin range.

Of protocols that include a target hemoglobin range, 94 percent are consistent with the boxed
warning on the FDA-approved labels and the Medicare benefit policy for ESAs. These protocols
include a target hemoglobin range in which the upper limit of the target range is equal to or less
than 12 g/dL. For the remaining 6 percent of protocols that include a target hemoglobin range,
the upper limit of the target range exceeds 12 g/dL. The upper limits in these protocols range
from 12.1 g/dL to 13 g/dL with a median of 12.5 g/dL.

More chain facilities are consistent with the warning than nonchain facilities. We detected no
statistically significant difference between the percentage of protocols that are consistent with the
boxed warning based on facilities’ profit status, whether the facility is freestanding or
hospital-based, or on facility size. However, we detected a statistically significant difference at
the 95-percent confidence level based on whether the facility is part of a chain. Protocols from
chain facilities are more likely to be consistent with the boxed warning than protocols from
nonchain facilities. Specifically, 97 percent of protocols from chain facilities are consistent with
the warning, compared to 87 percent of protocols from nonchain facilities.

For protocols that specify a target hemoglobin range, the lower limit of the target range is
typically 11 g/dL. The lower limit of the target range is equal to 10 g/dL for only 16 percent of
protocols that include a target hemoglobin range. The remaining 84 percent of protocols include
a target hemoglobin range with a lower limit that is greater than 10 g/dL. Almost all of these
protocols (97 percent) report a lower limit of 11 g/dL. The lower limit of the hemoglobin target
range for these protocols exceeds the lower limit of the target range on the boxed warning and in
the Medicare benefit policy. However, it is consistent with a March 2007 National Kidney
Foundation clinical practice recommendation that, for patients “with chronic kidney disease
receiving ESA therapy, the selected hemoglobin target should generally be in the range of 11 to
12 g/dL.” 21




20
  FDA, “Information on Erythropoeisis-Stimulating Agents,” loc. cit.
21
  National Kidney Foundation, “Kidney Disease Outcomes Quality Initiatives Guidelines.” Available online at
http://www.kidney.org/professionals/KDOQI/guidelines_anemia/cpr21message.htm. Accessed on May 11, 2009.

OEI-03-09-00010     Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 10 – Charlene Frizzera and Margaret A. Hamburg, M.D.

Some Dialysis Facilities’ Protocols Contain Information That Differs From Selected
Guidelines on ESAs’ Labels
The percentage of dialysis facilities’ protocols that addressed each of the selected ESA dosage
and administration guidelines ranged from 56 percent to 95 percent. However, some of these
protocols include information that differs from the guidelines outlined on the FDA-approved
labels for ESAs.

Sixteen percent of protocols that include instructions regarding starting doses instruct providers
to administer a higher starting dose than is recommended. The FDA-approved epoetin alfa label
states that the starting dose for adults should be 50 to 100 units per kilogram, three times per
week. The FDA-approved darbepoetin alfa label states that the starting dose for adults should be
0.45 micrograms per kilogram, once per week. As shown in Table 3, 56 percent of protocols
include instructions regarding starting doses. Of these protocols, 16 percent instruct providers to
administer a higher maximum starting dose than is recommended on ESAs’ labels. All but two
of these protocols are specific to epoetin alfa. The maximum starting doses for these epoetin alfa
protocols range from 125 to 200 units per kilogram, three times per week.

Ninety-four percent of protocols that specify a hemoglobin level at which to increase patients’
dosages instruct providers to increase dosages when hemoglobin levels are already within the
target range on the boxed warning. The FDA-approved label for epoetin alfa states that
providers should increase the dose if a patient’s hemoglobin level falls below 10 g/dL. 22
Ninety-five percent of epoetin alfa protocols specify a hemoglobin level at which to increase
patients’ dosages. Of these protocols, 94 percent instruct providers to increase the dose when a
patient’s hemoglobin level is within the recommended target range of 10 to 12 g/dL. Most of
these protocols instruct providers to increase the dose when a patient’s hemoglobin level is
within the range of 11 to 12 g/dL.

For 62 percent of the epoetin alfa protocols that specify a hemoglobin level at which to increase
patients’ dosages, providers are also instructed to ensure that additional conditions are met before
increasing the dose. For example, some protocols instruct providers to increase the dose when a
patient’s hemoglobin level is equal to 12 g/dL, but only if the patient’s hemoglobin level is
decreasing over time. Other protocols instruct providers to increase the dose when a patient’s
hemoglobin level is 12 g/dL, but the patient’s hemoglobin level must be decreasing over time
and the previous dose must have been below a specified amount.

More than 40 percent of protocols that specify a hemoglobin level at which to decrease patients’
ESA dosages do not instruct providers to decrease dosages until hemoglobin levels are 12 g/dL
or higher. The FDA-approved labels for ESAs state that providers should reduce the ESA dose
if a patient’s hemoglobin level is “approaching 12 g/dL.” Ninety-one percent of protocols
specify a hemoglobin level at which to decrease patients’ ESA dosages. Of these protocols,
43 percent do not instruct providers to decrease a patient’s ESA dose until the patient’s
hemoglobin level is 12 g/dL or higher. The remaining 57 percent of protocols that specify a

22
     The darbepoetin alfa label does not include this guideline for increasing patients’ ESA dosages.

OEI-03-09-00010          Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 11 – Charlene Frizzera and Margaret A. Hamburg, M.D.

hemoglobin level at which to decrease patients’ ESA dosages instruct providers to reduce the
ESA dose when a patient’s hemoglobin level is less than 12 g/dL.

Ninety percent of protocols that specify a hemoglobin level at which to withhold patients’ ESA
dosages do not instruct providers to withhold dosages until hemoglobin levels are 13 g/dL or
higher. ESAs’ labels state that the dose “should be temporarily withheld” if the dose has been
reduced because a patient’s hemoglobin level is approaching 12 g/dL and the hemoglobin level
continues to increase despite the dose reduction. Ninety-five percent of protocols specify a
hemoglobin level at which to withhold patients’ ESA dosages. Of these protocols, 81 percent do
not instruct providers to withhold the dose until a patient’s hemoglobin level is in the range of
13 to 13.4 g/dL. Whether the dose is withheld depends on additional conditions for two-thirds of
these protocols. For example, many protocols that instruct providers to withhold ESA doses
when hemoglobin levels are greater than 13 g/dL state that hemoglobin must exceed 13 g/dL for
3 or more consecutive months before withholding the dose.

An additional 9 percent of dialysis facilities’ protocols that specify a hemoglobin level at which
to withhold patients’ ESA doses do not instruct providers to withhold the dose until a patient’s
hemoglobin level is 13.5 to 15 g/dL.

All Protocols That Include a Target Hemoglobin Range or Level at Which To Increase the
Dose Conform With CMS’s Monitoring Policy for ESA Claims
CMS initiates its ESA payment monitoring policy when the hemoglobin level reported on an
ESA claim exceeds 13 g/dL. For hemoglobin levels that exceed 13 g/dL for less than 3 months,
CMS instructs providers to report ESA dose reductions. If providers do not report dose
reductions, CMS will pay only for a dosage which represents a 25-percent reduction of the
dosage reported on the claim. For claims that report hemoglobin levels that exceed 13 g/dL for
3 or more consecutive months, CMS reimburses providers for an ESA dose that represents a
50-percent reduction of the dose reported on the claim. 23

None of the dialysis facilities’ protocols that include a target hemoglobin range report a target
range that exceeds 13 g/dL. Six percent of protocols include a target range with an upper limit
that is between 12.1 and 13 g/dL. For the epoetin alfa protocols that specify a hemoglobin level
at which to increase patients’ ESA dosages, no protocol instructs providers to increase the dose
when a patient’s hemoglobin level is equal to or greater than 13 g/dL.

CONCLUSION

Almost all dialysis facilities that responded to our request had protocols in place for
administering ESAs. Fifty-six percent of protocols explicitly state a target hemoglobin range
that is, with few exceptions, consistent with the boxed warning that states ESAs should be
administered to achieve and maintain hemoglobin levels in the range of 10 to 12 g/dL. These
target hemoglobin ranges are also consistent with the Medicare benefit policy for ESAs.

23
     CMS, “Medicare Claims Processing Manual,” §§ 60.4 and 60.7.

OEI-03-09-00010        Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 12 – Charlene Frizzera and Margaret A. Hamburg, M.D.

However, we could not determine whether the remaining 44 percent of protocols were consistent
with the boxed warning and Medicare’s benefit policy because they did not specify a target
hemoglobin range.

In addition, some protocols contain instructions regarding starting doses, dose adjustments, and
withholding ESA doses that differ from selected guidelines on ESAs’ labels. For example, the
epoetin alfa label states that providers should increase the ESA dose if a patient’s hemoglobin
level falls below 10 g/dL. Of protocols that specify a hemoglobin level at which to increase
dosages, 94 percent instruct providers to increase ESA dosages when patients’ hemoglobin levels
are already within the target range of 10 to 12 g/dL.

Finally, all protocols that include a target hemoglobin range or guidelines regarding dose
increases conform with the hemoglobin threshold of 13 g/dL specified in CMS’s monitoring
policy for ESA claims.

Although our review does not address the amount of ESAs providers actually administer to
patients at their dialysis facilities, it does demonstrate that just over half of facilities had
protocols for administering ESAs that are consistent with the boxed warning and Medicare’s
benefit policy for ESAs. However, since almost half of the dialysis facilities either did not have
protocols or did not specify a target hemoglobin range in their protocols, we cannot determine
whether these facilities’ policies target the hemoglobin range outlined in the boxed warning that
FDA requires on ESA labels to alert physicians and patients with chronic kidney failure about
the increased risks associated with higher hemoglobin levels.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-03-09-00010 in all correspondence.




OEI-03-09-00010   Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 13 – Charlene Frizzera and Margaret A. Hamburg, M.D.

APPENDIX A

Confidence Intervals for Selected Estimates
                                                                                 1
 Estimate Description                                      n    Point Estimate       95-Percent Confidence Interval

Percentage of dialysis facilities that have protocols     366             93.2%                        90.3%–96.1%

Percentage of dialysis facilities that do not have
                                                          366              6.7%                          3.8%–9.6%
protocols

Percentage of protocols that include an explicit target
                                                          357             55.9%                        49.8%–62.0%
hemoglobin range

Percentage of protocols that do not include an explicit
                                                          357             44.0%                        37.9%–50.1%
target hemoglobin range

Of protocols that include a target hemoglobin range,
percentage that include an upper target limit equal to    209             94.3%                        90.8%–97.7%
or less than 12 grams per deciliter (g/dL)

Of protocols that include a target hemoglobin range,
percentage that include an upper target limit greater     209              5.6%                          2.2%–9.1%
than 12 g/dL

Of protocols that include a target hemoglobin range,
percentage that include a lower target limit equal to     206             15.7%                        10.1%–21.2%
10 g/dL

Of protocols that include a target hemoglobin range,
percentage that include a lower target limit greater      206             84.3%                        78.7%–89.8%
than 10 g/dL

Percentage of protocols that include a lower target
limit greater than 10 g/dL where the lower target limit   162             97.2%                        95.0%–99.4%
equals 11 g/dL

Percentage of protocols that include starting dose
                                                          357             56.2%                        50.3%–62.1%
information

Percentage of protocols that do not include starting
                                                          357             43.7%                        37.8%–49.6%
dose information

Of protocols that include starting dose information,
percentage that include a starting dose higher than       202             16.0%                        10.9%–21.1%
labels' guidelines

Percentage of epoetin alfa protocols that specify a
                                                          299             95.1%                        92.6%–97.6%
hemoglobin level at which to increase dose

Percentage of epoetin alfa protocols that do not
                                                          299              4.8%                          2.3%–7.3%
specify a hemoglobin level at which to increase dose

                                                                                                continued on next page


OEI-03-09-00010           Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 14 – Charlene Frizzera and Margaret A. Hamburg, M.D.

Confidence Intervals for Selected Estimates (continued)
                                                                                           1
    Estimate Description                                            n     Point Estimate         95-Percent Confidence Interval

Of epoetin alfa protocols that specify a hemoglobin
level at which to increase dose, percentage that
                                                                   279                26.3%                            20.6%–31.9%
instruct providers to increase dose when hemoglobin
is 10 to 10.9 g/dL

Of epoetin alfa protocols that specify a hemoglobin
level at which to increase dose, percentage that
                                                                   279                67.8%                            61.7%–73.8%
instruct providers to increase dose when hemoglobin
is 11 to 12 g/dL

Of epoetin alfa protocols that specify a hemoglobin
level at which to increase dose, percentage that                   279                61.6%                            55.4%–67.8%
include additional conditions for increasing dose

Percentage of protocols that specify a hemoglobin
                                                                   357                90.6%                            87.4%–93.8%
level at which to decrease dose

Percentage of protocols that do not specify a
                                                                   357                  9.3%                            6.1%–12.5%
hemoglobin level at which to decrease dose

Of protocols that specify a hemoglobin level at which
to decrease dose, percentage that instruct providers to            307                42.5%                            36.3%–48.8%
decrease dose when hemoglobin is 12 g/dL or higher

Of protocols that specify a hemoglobin level at which
to decrease dose, percentage that instruct providers to            307                57.4%                            51.2%–63.6%
decrease dose when hemoglobin is less than 12 g/dL

Percentage of protocols that specify a hemoglobin
                                                                   357                94.9%                            92.8%–96.9%
level at which to withhold dose

Percentage of protocols that do not specify a
                                                                   357                  5.1%                              3.0%–7.1%
hemoglobin level at which to withhold dose

Of protocols that specify a hemoglobin level at which
to withhold dose, percentage where specified                       325                81.0%                            76.4%–85.5%
hemoglobin equals 13 to 13.4 g/dL

Of protocols that specify a hemoglobin level at which
to withhold dose, percentage where specified                       325                  9.4%                            5.9%–13.0%
hemoglobin equals 13.5 to 15 g/dL

Of protocols that specify a hemoglobin level at which
to withhold dose, percentage where specified
                                                                   238                66.9%                            60.7%–73.1%
hemoglobin equals 13 to 13.4 g/dL that include
additional conditions for withholding dose

Source: Office of Inspector General analysis of dialysis facilities’ protocols for administering erythropoiesis-stimulating agents, 2009.
1
Point estimates are weighted to reflect our stratified sample design.




OEI-03-09-00010            Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
Page 15 – Charlene Frizzera and Margaret A. Hamburg, M.D.

APPENDIX B

Results of Statistical Significance Tests

Weighted Chi-Square Tests Comparing Percentages of Protocols That Were
Consistent With the Boxed Warning Based on Dialysis Facility Characteristics
                                                                               Percentage of Protocols in
                                                                                                                       P-Value for
    Dialysis Facility Characteristic                                          Which Upper Limit of Target
                                                                                                                      Difference in
                                                                             Hemoglobin Range Was Less
                                                                                                         1            Percentages
                                                                                Than or Equal to 12 g/dL

                                                   For-profit facilities                                 95.6%
Profit status                                                                                                                  0.3655
                                                   Nonprofit facilities                                  92.9%


                                             Hospital-based facilities                                   89.4%
Type of setting                                                                                                                0.1367
                                               Freestanding facilities                                   95.0%


                                                       Chain facilities                                  96.7%
                                                                                                                                       2
Chain status                                                                                                                  0.0489
                                                   Nonchain facilities                                   87.3%

1
g/dL is grams per deciliter.
2
 The difference between the percentage of protocols from chain facilities that were consistent with the boxed warning and the
percentage of protocols from nonchain facilities that were consistent with the warning was statistically significant at the 95-percent
confidence level.
Source: Office of Inspector General (OIG) analysis of dialysis facilities’ protocols for administering erythropoiesis-stimulating agents,
2009.


Weighted T-Test Comparing Protocols That Were Consistent With the Boxed
Warning to Protocols That Were Not Consistent With the Boxed Warning Based on
Dialysis Facility Size

                                                                       Mean Number of                                  P-Value for
                                                                                                  Difference in
                                                                    Dialysis Stations as                              Difference in
                                                                                                         Means
                                                                  Proxy for Facility Size                                    Means


Facilities’ protocols in which upper limit of target                                    18.9
                                                     1
hemoglobin range was less than or equal to 12 g/dL
                                                                                                              1.7              0.2752

Facilities’ protocols in which upper limit of target                                    17.2
hemoglobin range was greater than 12 g/dL

1
g/dL is grams per deciliter.
Source: OIG analysis of dialysis facilities’ protocols for administering erythropoiesis-stimulating agents, 2009.




OEI-03-09-00010            Renal Dialysis Facilities’ Dosage Protocols for Administering ESAs
